                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A13030038                                                                      Page 1 of 1


                 NSF OIG reviewed a Phase I SBIR funded proposal for plagiarism. 1 Our analysis
         identified copied text from a single source. 2 We contacted the Subject regarding the allegation,
         and based on his response, we determined he had copied text from the source into his proposal
         without proper attribution. While a reference to the source was included at the beginning of the
         copied text, the verbatim replication is not distinguished with quotations or indentation to allow
         the reader to infer the origin of the material.

                 Given the small amount of questioned text remmmng, the absence of additional
         plagiarized material, and the Subject's explanation, we concluded the Subject's copying met the
         definition of plagiarism and was a departure, but not a significant departure from accepted
         community standards. Thus, his action did not rise to the level of research misconduct.
         Therefore, we sent a questionable research practice letter to the Subject, reminding him of his
         responsibility to correctly cite source material included in his proposals and indicating that
         similar future allegations made against him could result in our office recommending that NSF
         make a finding of research misconduct. Accordingly, this case is closed with no further action
         taken.




NSF OIG Form 4 (11102)
